No. 20-1523

IN THE SUPREME COURT OF THE UNITED STATES

 

ROLANDO CRUZ, JR.,
MARC HERNANDEZ,
and ROSCOE VILLEGA, Petitioners
v.

UNITED STATES OF AMERICA, Respondent

 

RESPONDENT MAURICE ATKINSON'S BRIEF IN SUPPORT OF
PETITIONERS ROLANDO CRUZ, JR.. MARC HERNANDEZ
AND ROSCOE VILLEGA’S PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT

Respondent, Maurice Atkinson, supports the position of Petitioners, Rolando
Cruz, Jr., Marc Hernandez, and Roscoe Villega. As such, Respondent Atkinson
adopts the arguments set forth in Petitioners Cruz, Jr.; Hernandez; and Villega’s
Petition for Writ of Certiorari and incorporates them into his Petition. For the
reasons set forth in Petitioners Cruz, Jr.; Hernandez; and Villega’s Petition for Writ
of Certiorari, Respondent Atkinson respectfully requests that the Supreme Court
grant certiorari in the instant case.

Respectfully Submitted,

THOMAS, THOMAS & HAFER, LLP
/s/ John F. Yaninek

John F. Yaninek, Esquire
PA Attorney ID #55741
PO Box 999
Harrisburg, PA 17108
(717) 441-3952 - Phone
(717) 237-7105 — Fax
Date: May 5, 2021 Attorney for Respondent, Maurice Atkinson

1
CERTIFICATE OF MEMBERSHIP IN BAR
I, JOHN YANINEK, counsel for Respondent Maurice Atkinson, hereby certify

that Iam a member of the Bar of this Court.

/s/ John F. Yaninek

JOHN F. YANINEK
No. 20-1523

 

IN THE SUPREME COURT OF THE UNITED STATES

 

ROLANDO CRUZ, JR.,
MARC HERNANDEZ,
and ROSCOE VILLEGA,
Petitioners
Vv.

UNITED STATES OF AMERICA
Respondent

DECLARATION PURSUANT TO RULE 29.2
OF THE RULES OF THE SUPREME COURT

I declare under penalty of perjury under the laws of the United States of
America that Respondent Maurice Atkinson’s Brief In Support Of Petitioners
Rolando Cruz, Jr., Mare Hernandez, and Roscoe Villega’s Petition For Writ Of
Certiorari was mailed to the Clerk’s Office of the United States Supreme Court in

Washington D.C., postage paid and fees paid (USC-426), First Class Mail.

DATE: May 5, 2021

/s/ John F. Yaninek

John F. Yaninek
Counsel for Respondent,
Maurice Atkinson
